Office of Audits and Evaluations
Report No. EVAL-12-005


FDIC Conference-Related Expenses and
Activities




                                   March 2012
                                     Executive Summary

                                     FDIC Conference-Related Activities and
                                     Expenses
                                                                                   Report No. EVAL-12-005
                                                                                               March 2012

Why We Did The Evaluation
The FDIC sponsors divisional and office-wide conferences for FDIC employees, and periodically other
agency participants, to provide information about emerging issues, divisional priorities and initiatives,
group training, and networking opportunities. In September 2011, the Office of Management and Budget
(OMB) instructed agencies and departments to review policies and controls associated with
conference-related activities and expenses (OMB memorandum M-11-35). While the FDIC is not
required to follow the OMB guidance, the Acting Chairman requested that we review the FDIC’s policies
and controls associated with conference-related activities and expenses to assist the Corporation in
complying with the spirit of the instructions.

The objective of our evaluation was to assess the FDIC’s policies and controls associated with
conference-related activities and expenses. We generally focused our assignment on conferences that
were conducted from October 1, 2010 through September 30, 2011. To meet our objective, we selected
for review a sample of eight conferences, which accounted for substantially all of the conference-related
costs the Corporation incurred during that period. We interviewed conference planners and assessed
conference costs and supporting documentation against the FDIC’s conference policy. We also reviewed
conference-related regulations applicable to other government agencies, and obtained conference policies
and interviewed representatives from several other agencies to identify other agency practices.


Background
The FDIC periodically sponsors conferences, meetings, and symposiums, collectively referred to as
“conferences.” The FDIC uses conferences to deliver a common message or strategy to all attendees,
provide updates on policies and procedures or changes in operations, and to show appreciation for staffs’
hard work. Conferences provide the FDIC’s distributed work force networking opportunities, time to
catch up with fellow employees, and help to foster camaraderie and improve morale.

Notwithstanding these benefits, conference fees can be significant and should be monitored to ensure that
related activities and expenses are appropriate and allowable. At our request, the FDIC provided us with
documentation indicating that, from October 2010 through September 2011, the Corporation incurred
about $3.9 million in conference-related costs for 6,005 attendees.

Most government agencies are required to follow the Federal Travel Regulation (FTR) promulgated by
the General Services Administration (GSA) and other regulations. The FTR details agency
responsibilities for conference planning, allowable per diem rates, and expectations for minimizing
conference costs. As an independent agency, the FDIC is not required to follow conference spending
criteria applicable to most other government agencies. Instead, as have other independent agencies we
contacted during our review, the FDIC established its own internal policies for planning and conducting
conferences.

FDIC division and office directors may approve proposals for smaller, inexpensive, on-site conferences;
however, the Chief Financial Officer (CFO) must generally approve conferences with more than
100 attendees or conferences held at off-site locations. The FDIC has professional conference planning
services available within the Division of Administration’s Special Services Unit, and a contracted travel
agency that divisions and offices may elect to use to plan conferences.




                                 To view the full report, go to www.fdicig.gov
    Executive Summary
                                     FDIC Conference-Related Activities and
                                     Expenses
                                                                                   Report No. EVAL-12-005
                                                                                               March 2012


Evaluation Results
The FDIC generally complied with its conference policies. Based on our review of eight conferences,
FDIC conference planning officials prepared required budgeting and approval documents, ensured that
conferences were approved at the appropriate management level, and obtained multiple bids from
hotels/conference centers and considered travel costs and other factors required by policy when making
best value determinations for conference sites.

We did identify two compliance exceptions:

   Meals expenses for a dinner and a reception exceeded FDIC policy limits—200 percent of GSA per
    diem rates—and were not justified or approved as required. The total amount of cost above the FDIC
    policy limit was $5,801.

   The FDIC held a dinner/reception for 800 FDIC employees and spouses for which a substantial
    amount of the expenses related to food and beverages was allowable under FDIC policy, while the
    remainder—estimated by management to be about $5,200—constituted entertainment expense and
    was not allowable.

We also concluded that opportunities exist to strengthen conference-related policy and controls and to
reduce conference expenses. Doing so would be consistent with the spirit of the aforementioned OMB
memorandum, FTR provisions and other regulations, and a recent Executive Order aimed at reducing
conference and other agency expenses. These areas include:

   Strengthening the conference approval process;
   Centralizing conference planning and requiring the involvement of the Special Services Unit for
    conferences exceeding a certain dollar threshold;
   Exploring ways to make greater use of FDIC facilities to host conferences when the use of such
    facilities is cost effective;
   Strengthening controls over meals expenses;
   Reiterating and clarifying corporate policy related to entertainment expenses;
   Reviewing corporate policy related to external speakers; and
   Ensuring that all conference-related expenses are captured in the conference closeout and evaluation
    process.

At the time of our review, the FDIC was reassessing its conference policy and had informally established
interim measures aimed at ensuring conferences are cost effective.

Management Comments

After we issued our draft report, FDIC management provided additional information and informal
comments for our consideration, and we revised our report to reflect this feedback, as appropriate. The
FDIC also revised and reissued FDIC Circular 1010.2, Conference, Meeting, and Symposium Planning
Policies, Procedures, and Approval Requirements for Using FDIC Funds for These Activities, effective
March 22, 2012. We reviewed the revised policy and concluded that the policy adequately addressed




                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      FDIC Conference-Related Activities and
                                      Expenses
                                                                                    Report No. EVAL-12-005
                                                                                                March 2012

each of the opportunities for improvement raised in this report. The Deputy to the Chairman and CFO
provided a written response to our draft report, dated March 28, 2012. The response indicated that in
addition to addressing our opportunities for improvement, the Corporation made other revisions to the
conference policy based on its own evaluation of other agencies’ best practices and benchmarks. As with
the revised policy, the Corporation’s written response adequately addressed the issues raised in our report.




                                  To view the full report, go to www.fdicig.gov
                                    CONTENTS

OBJECTIVE AND SCOPE                                                                   1

BACKGROUND                                                                            2

EVALUATION RESULTS                                                                    4
Opportunities for Strengthening Existing Controls and Reducing                        5
Conference Expenses
      Strengthening the Conference Approval Process                                   5

      Centralizing Conference Planning and Involving the Special Services Unit for    6
      Conferences Exceeding a Certain Dollar Threshold
      Exploring Ways to Make Greater Use of FDIC Facilities When Cost Effective       7

      Strengthening Controls over Meals Expenses                                      8

      Reiterating and Clarifying Corporate Policy Related to Entertainment            9
      Expenses
      Reviewing Corporate Policy Related to External Speakers                        10

      Capturing All Conference-Related Expenses in the Conference Closeout and 11
      Evaluation Process

CORPORATION COMMENTS AND OIG EVALUATION                                              12

APPENDICES
    1. Objective, Scope, and Methodology                                             13
    2. Corporation Comments                                                          14

TABLES
    1. FDIC Conferences Reviewed – October 1, 2010 through                            3
       September 30, 2011
    2. Analysis of Travel Voucher Coding                                             11
                             ACRONYMS



CFO    Chief Financial Officer
DCP    Division of Depositor and Consumer Protection
DOA    Division of Administration
DOJ    Department of Justice
FAR    Federal Acquisition Regulation
FDIC   Federal Deposit Insurance Corporation
FTR    Federal Travel Regulation
GAO    Government Accountability Office
GSA    General Services Administration
NFE    New Financial Environment
OIG    Office of Inspector General
OMB    Office of Management and Budget
RMS    Division of Risk Management Supervision
SSU    Special Services Unit
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, Virginia 22226                                               Office of Inspector General



DATE:                                           March 30, 2012

MEMORANDUM TO:                                  Martin J. Gruenberg
                                                Acting Chairman


                                                /Signed/
FROM:                                           Jon T. Rymer
                                                Inspector General

SUBJECT:                                        FDIC Conference-Related Activities and Expenses
                                                (Report No. EVAL-12-005)


The Federal Deposit Insurance Corporation (FDIC) sponsors divisional and office-wide
conferences for FDIC employees, and periodically other agency and financial industry
participants, to provide information about emerging issues, divisional priorities and initiatives,
group training, and networking opportunities. In September 2011, the Office of Management
and Budget (OMB) instructed agencies and departments to review policies and controls
associated with conference-related activities and expenses (OMB Memorandum M-11-35).1
While the FDIC is not required to follow the OMB guidance, you requested that we review the
FDIC’s policies and controls associated with conference-related activities and expenses to assist
the Corporation in complying with the spirit of the instructions. In doing so, we also considered
the President’s November 2011 Executive Order promoting efficient spending and requiring
agencies to make all appropriate efforts to host conferences in space controlled by the federal
government when practicable and cost effective.

OBJECTIVE AND SCOPE

The objective of our evaluation was to assess the FDIC’s policies and controls associated with
conference-related activities and expenses. We addressed this objective in two ways: we
assessed the FDIC’s compliance with its conference policies and procedures as they existed
during the period relevant to our review, and we separately considered other government
regulations and practices to identify, for management’s consideration, opportunities to strengthen
FDIC policies. We generally focused our review of the FDIC’s compliance with its existing
policies on conferences that were conducted from October 1, 2010 through September 30, 2011.
In doing so, we selected a sample of conferences, interviewed conference planners, and assessed
conference costs and supporting documentation against the FDIC’s conference policy and its
policy for the purchase and consumption of food and beverage using corporate funds.


1
 OMB Memorandum M-11-35, Eliminating Excess Conference Spending and Promoting Efficiency in Government,
dated September 21, 2011.


                                                                    1
With respect to the second component of our assessment, during the course of our review, we
provided management with conference-related regulations applicable to other government
agencies and other agency practices that we had identified. In addition, we reference certain of
those regulations and practices later in the report in the context of possible opportunities for
reducing future conference expenses.

We performed our evaluation from October through December 2011 in accordance with the
Council of Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation. Appendix I includes additional detail on our objective, scope, and methodology.


BACKGROUND

The FDIC periodically sponsors conferences, meetings, and symposiums, collectively referred to
as “conferences,” that range from local gatherings involving less than 100 participants to large
off-site conferences involving 700 employees and requiring long-distance travel. The FDIC uses
conferences to deliver a common message or strategy to all attendees, provide updates on
policies and procedures or changes in operations, and show appreciation for staffs’ hard work.
In addition to delivering a single message and providing learning opportunities, conferences
provide the FDIC’s distributed work force networking opportunities, time to catch up with fellow
employees, and help to foster camaraderie and improve morale.

Notwithstanding these benefits, conference fees can be significant and should be monitored to
ensure that related activities and expenses are appropriate and allowable. Conference expenses
and activities can also present reputational risk for the Corporation if the public perceives that
expenses are unwise or excessive. At our request, the FDIC provided us with documentation
indicating that, from October 2010 through September 2011, the Corporation incurred
$3,877,845 in conference-related costs for 6,005 attendees.2 For purposes of our evaluation, we
selected a sample of eight conferences representing 96 percent of those costs. Each of these
conferences was approved during 2010. Table 1 below presents information about the
conferences that we reviewed.




2
 As noted in Table 1, and discussed later in the report, FDIC policy does not require and FDIC divisions and offices
did not consistently capture all actual costs associated with the conferences. As a result, certain costs incurred were
estimated or not readily determinable.


                                                          2
Table 1: FDIC Conferences Reviewed – October 1, 2010 through September 30, 2011
        Description of Conference                    Location           Duration      Attendees          Cost
New York Regional Training Conference               Boston, MA           5 days           598         $1,255,999a
Chicago Regional Training Conference               Nashville, TN         5 days           642         $1,260,089a
FDIC/Department of Justice (DOJ)
                                                  San Diego, CA          5 days           348           $644,053a
Financial Crimes Conference
Interagency Accounting Conference                  Anaheim, CA           3 days           174           $273,871a
Minority Depository Institutions
                                                  New York, NY           3 days           275           $200,097a
Conference
                                                    The FDIC’s
Division of Resolutions and
                                                  Seidman Center         2 days           266            $41,438c
Receiverships All Managers Meeting
                                                  Arlington, VAb
                                                    The FDIC’s
Mortgage Symposium                                Seidman Center         2 days           305            $37,035c
                                                   Arlington, VA
                                                    The FDIC’s
2011 Litigation and Resolutions
                                                  Seidman Center         3 days           250            $27,198c
Conference
                                                   Arlington, VA
Total                                                                                    2,858         $3,739,780
Source: OIG analysis of conference-related documentation and reports.
a
  Reflects all costs reported on conference closeout forms.
b
  The L. William Seidman Center at Virginia Square has an office building with office space, training, and
  conference facilities for FDIC employees, and a residence building for students and instructors attending classes
  or conferences at the Center.
c
  Reflects the cost of meals only, according to invoices from the FDIC’s food services contractor. Airfare and
  per diem expenses are not included.

The largest conferences at the FDIC are the Division of Risk Management Supervision
(RMS)/Division of Depositor and Consumer Protection (DCP) regional training conferences.
The FDIC has 90 field and territory offices that house FDIC bank examiners and associated
support staff. The field offices are organized into six regional offices. Each regional office
periodically holds a regional training conference where all of the field examiners in a region
meet in a single location for 5 days to discuss divisional priorities, emerging issues, and risks
facing the banking industry. Historically, regional training conferences were held every 3 years.
However, during the recent financial crisis, these conferences were suspended due to agency
workload. In 2010, the FDIC Chairman approved resuming regional conferences at a rate of 2 to
3 conferences per year and frequency of 3 years between each regional conference. The most
recent regional conference held prior to 2011 took place in June 2008, in Kansas City. Three
others were held in 2007. The New York and Chicago regional conferences were last held in
August 2005 and May 2006, respectively.

As an independent agency, the FDIC is not required to follow conference spending criteria
applicable to most other government agencies. Instead, as have other independent agencies we
contacted during our review, the FDIC established its own internal policies for planning and
conducting conferences. The FDIC issued Circular 1010.2, Conference, Meeting and
Symposium Planning Policy and Procedures, dated October 31, 2007, to establish policy,
procedures, and guidelines for planning and conducting conferences, meetings, or symposiums
and to establish methods to measure their benefit to participants. The FDIC also issued
Circular 2410.9, Policies Governing the Purchase of Food and Alcoholic Beverages Using


                                                         3
Corporate Funds; and the Consumption of Alcoholic Beverages in FDIC Buildings, dated
December 22, 2003.

FDIC division and office directors may approve proposals for smaller, inexpensive, on-site
conferences; however, the Chief Financial Officer (CFO) must generally approve conferences
with more than 100 attendees or conferences held at off-site locations. The FDIC has
professional conference planning services available within the Division of Administration
(DOA) and a contracted travel agency that divisions and offices may elect to use to plan
conferences.

With respect to the second component of our review, most other government agencies are
required to comply with the following criteria when planning and conducting conferences:

   41 CFR Parts 301-11 and 301-74, Federal Travel Regulation, Conference Planning,
    promulgated by the General Services Administration (GSA). The Federal Travel Regulation
    (FTR) details agency responsibilities for conference planning, allowable per diem rates, and
    expectations for minimizing conference costs.

   The Government Accountability Office’s (GAO), Principles of Federal Appropriations Law,
    which presents basic reference work covering those areas of law in which the Comptroller
    General has rendered a decision, including the availability of appropriations for specific
    purposes.

   The Federal Acquisition Regulation (FAR), which provides guidance on selected costs that
    are not allowable under FAR-based federal contracts.

As mentioned previously, the FDIC is not required to follow these regulations or guidance.
However, these regulations provided a point of reference for conference spending expectations in
most other government agencies, and we present references to the FTR, FAR, and other guidance
in the context of possible opportunities for reducing future conference expenses.


EVALUATION RESULTS

Except as described below, FDIC officials generally complied with the Corporation’s conference
policy. Based on our review of eight conferences, FDIC conference planning officials prepared
required budgeting and approval documents, ensured that conferences were approved at the
appropriate management level, obtained multiple bids from hotels/conference centers, and
considered travel costs and other factors required by policy when making best-value
determinations for conference sites.




                                                4
We did, however, identify two compliance exceptions:

   The cost of a meal and a reception associated with the Chicago Regional Training
    Conference exceeded the FDIC’s policy limit of 200 percent of per diem, were not included
    on the Conference Request form, and were not justified or approved as required. The total
    amount of cost above the FDIC policy limit was $5,801.

   At the Chicago Regional Training Conference in Nashville, Tennessee, the FDIC paid
    $106,400 to rent out a dining and entertainment establishment and provide dinner, beverages,
    and entertainment for 650 FDIC employees and 150 spouses/significant others. While a
    substantial amount of the expenses for this event was allowable under FDIC policy, the
    remainder—estimated by management to be about $5,200—constituted entertainment
    expense and was not allowable.

Based on our review of both the FDIC’s policy and other agencies’ guidance, we determined that
opportunities exist to strengthen conference-related policy and controls, and, in turn, reduce
conference expenses. Doing so would be consistent with the spirit of 2011 OMB guidance, other
federal regulations and guidance, and a recent Executive Order aimed at reducing conference and
other agency expenses. These opportunities are outlined below. During our review, the FDIC
was reassessing its conference policy and had informally established interim measures aimed at
ensuring conferences are cost effective.

Opportunities for Strengthening Existing Controls and Reducing Conference
Expenses

While most conference expenses complied with corporate policies, we identified opportunities
where the FDIC could improve controls or could revisit existing policy relative to federal
regulations and guidelines to reduce conference expenses. These opportunities include the
following:

Opportunity 1

Strengthening the Conference Approval Process

       Observation

    FDIC policy (Circular 1010.2, Conference, Meeting and Symposium Planning Policy and
    Procedures) requires conference organizers to submit form FDIC 2600/22, Conference
    Request, to provide estimated conference costs to approving officials for all conferences.
    The form requires inclusion of projected expenses for meeting and hotel rooms, meals,
    conference speakers, travel costs, and miscellaneous expenses.

    We found that conference organizers generally prepared the Conference Request form and
    obtained approval for each conference at the appropriate management level. Conference
    planners for one conference, the 2011 Litigation and Resolutions Conference, were not aware




                                                5
   that the Conference Request form was required for on-site conferences and did not prepare
   the form for the division director’s review.

   The Conference Request form requires cost information for several categories of meals
   (breakfast, lunch, dinner, breaks) and receptions (with and without alcohol). For each meal
   category, the form requires a per person cost, the number of people participating, and the
   number of times that the meal will be provided during the conference.

      Suggested Action

   The Conference Request form could be expanded to include more detailed information about
   conferences to provide approving officials with greater assurance that there will be no policy
   exceptions. The Conference Request form is completed early in the conference planning
   process, thus, some of this information may not be available at that time. However,
   conference organizers could submit additional conference details to the approving officials
   (division directors or the CFO) as those details become available and prior to entering into
   binding contracts. Such details could include conference agendas, including events and
   activities; information about speakers or reception locations; and additional or updated cost
   estimates. Several FDIC planners for conferences that we reviewed also indicated that the
   Conference Request and Conference Closeout forms could be improved.

Opportunity 2

Centralizing Conference Planning and Involving the Special Services Unit for Conferences
Exceeding a Certain Dollar Threshold

      Observation

   Circular 1010.2 briefly discusses conference planning services and notes that divisions and
   offices planning an FDIC-sponsored conference may elect to use professional conference
   planning services provided by the FDIC contracted travel agency (SATO) or conference and
   meeting planners within DOA’s Special Services Unit (SSU).

   Divisions and offices used the SSU to some extent for seven of the eight conferences that we
   reviewed. RMS did not use the SSU for the New York Regional Training Conference but
   did use SATO. In instances where the SSU was used, the unit largely served as a facilitator,
   meaning that SSU basically did what was requested by the conference planners. We also
   noted that program officials involved in conference planning do so infrequently.

      Suggested Action

   For conferences exceeding a certain dollar threshold, the FDIC could change and increase
   SSU’s role to more of an advisor or coach to assist divisions and offices through the entire
   conference planning, delivery, and closeout process. Doing so may reduce the level of effort
   required of divisional conference planners and approving executives and would create greater
   consistency between divisional conference efforts, highlight proposed expenses or activities


                                               6
   requiring greater attention from management, and ensure that all conference-related expenses
   are captured.

   In addition, it may be useful for the SSU to develop a “how-to-guide” to walk conference
   organizers through the planning process, policy limits and requirements, sources for speakers
   or other activities, and any other considerations or pitfalls of which conference planners
   should be aware.

Opportunity 3

Exploring Ways to Make Greater Use of FDIC Facilities When Cost Effective

      Observation

   Circular 1010.2 states that FDIC facilities should always be given first consideration when
   planning conferences. The Circular notes that Virginia Square can house up to 500
   conference attendees. If it is determined that Virginia Square does not represent a feasible
   option, a written explanation must be completed, alternative dates should be examined, and
   cost comparisons should be completed on form FDIC 2600/22, Conference Request.

   Five of the eight conferences that we reviewed were held at off-site locations. Each of those
   conferences included a written justification for not holding the conference at Virginia Square.
   The justifications noted that Virginia Square could only seat up to 220 persons, classroom
   style, and that Virginia Square breakout rooms were too small to accommodate breakout
   sessions. While it was difficult to make direct cost comparisons between on- and off-site
   conferences, it would seem that conferences held at Virginia Square would be significantly
   less costly than those held at off-site locations due to lower expenses for meals, meeting
   rooms, audio visual equipment and set-up, and lodging.

   DOA noted that the Virginia Square auditorium is frequently reserved by internal groups
   such as Corporate University or external groups such as the Federal Financial Institutions
   Examination Council or other government agencies and that it is sometimes difficult to find
   availability for internal conferences. Moreover, in some cases, a limiting factor is the
   availability of lodging at the adjacent Seidman Center. Even if the Virginia Square
   auditorium is available, the cost of reserving additional rooms at nearby hotels may eliminate
   the cost benefit of using Virginia Square as a conference site.

   Further, RMS officials noted that it would be impractical to break up the regional
   conferences into multiple sessions and indicated that doing so would be cost-prohibitive.
   RMS also stressed the benefit and importance of delivering a single message to its distributed
   workforce through the regional conferences, particularly when the conferences are only held
   once every 3 years. Nevertheless, these officials indicated that the FDIC was looking at
   other options in light of the cost, scrutiny, and reputational risk associated with such large
   conferences.




                                                7
      Suggested Action

   The FDIC should: (1) explore ways to make greater use of FDIC facilities for conferences
   by reconfiguring conference seating arrangements (to achieve more than a 220-person
   capacity limit), reevaluating the number of required attendees, or breaking up conferences
   into multiple sessions (e.g., two sessions of 220 participants); (2) revisit its practices for
   reserving the Virginia Square auditorium to ensure internal conference needs have been
   adequately considered before making the auditorium available to external groups; and
   (3) consider making greater use of technology, such as video teleconferencing, in
   determining how to deliver conference messages to participants.

Opportunity 4

Strengthening Controls Over Meals Expenses

      Observation

   Circular 2410.9 allows the use of corporate funds for the purchase of food and beverages.
   The Circular states, among other things, that: (1) FDIC officials should be careful not to
   select types and amounts of foods and beverages that could reasonably be perceived as
   extravagant. (2) Total per-person cost for corporate-funded meals (including alcoholic
   beverages, excluding tax and tip) should generally not exceed two times the allowable per
   diem for that meal at that location. (3) Written justification to the approving official is
   required for any overages.

   Based on our testing of eight FDIC conferences, we determined that most of the meals
   provided at the New York Regional Training Conference, Chicago Regional Training
   Conference, and FDIC/DOJ Financial Crimes Conference exceeded per diem by more than
   200 percent. An FDIC official indicated that form FDIC 2600/22, Conference Request, had
   been submitted and approved and served as the written justification for exceeding
   200 percent of per diem for these meals. However, we noted that the forms did not include a
   justification, per se, instead they only showed a per person and aggregate cost estimate for
   each meal. RMS officials indicated that, in the case of the New York and Chicago Regional
   Training Conferences, the conference meals expense was offset to some extent by the hotels
   providing discounted prices on rooms or other services such as audio visual equipment
   set-up.

   As noted earlier, we did identify two examples of meal costs exceeding per diem limits—by
   a total of $5,801—that were not included on the Conference Request Form and for which
   there was no other type of written justification and approval. Regional conferences generally
   include an executive dinner for FDIC executives and special guests (conference speakers or
   guests from other agencies). These meals provide an opportunity for FDIC officials to
   interact with state supervisors or officials from other regulatory agencies. The Chicago
   Regional Training Conference in Nashville included an executive dinner that averaged $243
   per person for 37 attendees ($195 not including tax and gratuity). The limit for per diem
   dinner costs in Nashville, per Circular 2410.9, was $68 ($34 x 200 percent); thus, the meal
   costs exceeded the FDIC policy limit by $4,699.


                                                8
   Second, in the case of the Chicago Regional Training Conference, the conference planning
   committee held a planning reception in Nashville about 8 months before the conference
   began. This reception cost $168 per person for 19 attendees ($126 not including tax and
   gratuity). As noted above, the FDIC policy limit was $68. As a result, the cost of the meals
   exceeded the FDIC policy limit by $1,102.

   We did not see any instances where conference attendees inappropriately claimed per diem in
   addition to conference-provided meals. As a result, in cases where the meal expense
   exceeded 200 percent of the per diem rate, the net additional cost to the Corporation was the
   difference between the actual cost of the meal and 200 percent of per diem. As an example,
   if the breakfast per diem rate in a city was $10.00, and the actual cost of the breakfast was
   $30.00, the net additional cost to the Corporation above the 200-percent policy limit amount
   would be $10.00 ($30.00 - $20.00) per person times the number of attendees. We estimate
   that meals expenses above the 200-percent per diem limit at the New York and Chicago
   Regional Training Conferences and the FDIC/DOJ Financial Crimes Conference increased
   the overall cost of those conferences by about 8.2 percent.

      Suggested Action

   The FDIC should revisit Circulars 1010.2 and 2410.9 and other controls related to meals
   expenses to ensure they are reasonably consistent with other federal agency guidance and
   practices, they clearly establish limits appropriate for the Corporation, and that the
   Conference Request form or some other form of documentation adequately provides analysis
   and justification for meals exceeding the per diem limit. As noted previously, the GSA FTR
   is applicable to most government agencies but not the FDIC. However, as a point of
   reference, the FTR limits conference per diem rates to 100 percent of the meals portion and
   125 percent of the lodging portion, respectively, of the GSA per diem rate applicable to the
   conference location. In addition, most of the agencies that we contacted have some limit on
   lodging and meals expenses.

Opportunity 5

Reiterating and Clarifying Corporate Policy Related to Entertainment Expenses

      Observation

   Circular 1010.2 states that expenses for entertainment are not allowable. At the discretion of
   the division or office director, contributions from participants may be used for entertainment,
   provided the contributions are made voluntarily and the entertainment selected is appropriate
   for a diverse, professional audience. Outside speakers and guest lecturers are not considered
   entertainment and are therefore not included in this category.

   At the Chicago Regional Training Conference in Nashville, the FDIC paid $106,400 to rent
   out a dining and entertainment establishment and provide dinner, beverages, and
   entertainment for 650 FDIC employees and 150 spouses/significant others. The $133 per
   person charge also included transportation from the hotel and security at the establishment.


                                                9
    While a substantial amount of the costs for this event was for food, beverages, security, and
    transportation and were allowable under FDIC policy, the remainder constituted
    entertainment expense and was not allowable. In that regard, during our evaluation, FDIC
    management estimated the cost of the entertainment at about $5,200. Further, FDIC officials
    indicated that the billing for the event consisted of a per-person, all-inclusive charge, and the
    establishment was not able to itemize the cost related to entertainment expense. RMS
    officials told us that, given the number of conference attendees, this establishment presented
    the best value for the Corporation among the limited number of suitable venues that were
    available in the area.

    RMS also hired live entertainment at two other regional training conference receptions. In
    both cases, RMS employees paid for the entertainment, as allowed by FDIC policy, and did
    not use corporate funds.

       Suggested Action

    The FDIC should reiterate Circular 1010.2 provisions related to paying for entertainment
    expenses and further define examples of what constitutes entertainment expenses. With
    respect to other agency policy and practices, the FAR does not allow payment of government
    funds under a contract for entertainment expenses. GAO’s Principles of Federal
    Appropriations Law also does not generally allow the use of appropriated funds to pay for
    entertainment expenses. Several non-appropriated agencies told us that their agency will pay
    for entertainment expenses on rare occasions. Such entertainment has to be directly relevant
    to the purpose of the conference or meeting—an example given was for a song or dance
    performance associated with a diversity event.

    Opportunity 6

    Reviewing Corporate Policy Related to External Speakers

       Observation

    Most conferences had in-house speakers or cost-free speakers from other agencies. The
    Chicago and New York Regional Training Conferences also had external speakers. External
    speaker fees were $33,500 at the Chicago Regional Training Conference and $36,500 at the
    New York Regional Training Conference. Individual speaker fees at these two conferences
    ranged from $1,500 to $15,000.

    In the case of both conferences, aggregate estimated speaker fees were included on the
    Conference Request forms and, therefore, had been approved. RMS conference planners
    indicated that speaker topics were related to the banking industry, the FDIC’s mission, or
    worklife issues. We observed internal speaker topics were generally related to banking
    topics or RMS/DCP initiatives. External speaker topics included themes related to work
    stress, tools for success, and nutrition.3

3
 We determined speaker topics by reviewing conference agendas. In some cases, conference agendas did not
specify speaker topics.


                                                     10
      Suggested Action

   Circular 1010.2 is largely silent regarding the use and payment of external speakers. The
   FDIC should clarify provisions in the Circular to ensure that conference speakers and topics
   are aligned with FDIC goals and values and that external speaker fees are reasonable.
   As it relates to other agency policy and practices, we did not identify specific provisions in
   the FAR or FTR governing external speakers, and other agency officials we interviewed
   indicated they generally ensured that speakers were “appropriate.”

Opportunity 7

Capturing All Conference-Related Expenses in the Conference Closeout and Evaluation
Process

      Observation

   Circular 1010.2 requires conference planners to develop a comparison of actual to estimated
   costs within 60 calendar days of conference completion. Conference attendees are supposed
   to code their travel costs to a specific conference code, and conference planners use the New
   Financial Environment (NFE) to identify travel-related conference costs. We found that
   conference attendees did not always properly code their travel vouchers, and we identified
   discrepancies between the number of actual conference attendees and travel costs captured
   within NFE. As a result, conference closeout forms underestimated actual conference costs.
   Table 2 presents information about the proper coding for three conferences.

       Table 2: Analysis of Travel Voucher Coding
                                                              Vouchers             Estimate of
                                               FDIC
                 Conference                                   Properly            Vouchers Not
                                            Attendees
                                                               Coded             Properly Coded
        FDIC/DOJ Financial Crimes               288              125                 163 (56%)
        Conference (San Diego)*
        Chicago Regional Training               642              542                 100 (16%)
        Conference (Nashville)
        New York Regional Training              598              484                 114 (19%)
        Conference (Boston)
        Source: OIG analysis of data from the FDIC’s Electronic Travel Voucher System.
        * The Legal Division adjusted the conference closeout form to account for the travel cost
          related to travel vouchers that were not properly coded.

   It may be unreasonable to expect all conference attendees to properly code their travel
   vouchers. Because this is a cost allocation issue that does not affect overall corporate
   spending, a simple proration of conference costs over the percentage of total vouchers that
   were not properly coded should suffice for calculating actual travel costs.

   We also noted that Circular 1010.2 does not specify what conference expenses management
   wishes to capture on the closeout form. In addition, a closeout form is not required for


                                                      11
   conferences approved at the divisional level. Accordingly, a few conferences in our sample
   did not have closeout forms even though these conferences had several hundred attendees.

      Suggested Action

   The FDIC should consider (1) additional means to ensure that conference attendees properly
   charge travel costs associated with conferences and (2) clarifying instructions for closeout
   forms to ensure they include the following expenses:

            Portions of expenses (e.g., speaker fees) paid by FDIC divisions other than the
             sponsoring division.
            Executive dinners.
            Conference planning expenses.
            Non-FDIC participants (spouses/significant others).


CORPORATION COMMENTS AND OIG EVALUATION

After we issued our draft report, FDIC management provided additional information and
informal comments for our consideration, and we revised our report to reflect this feedback, as
appropriate. The FDIC also revised and reissued FDIC Circular 1010.2, Conference, Meeting,
and Symposium Planning Policies, Procedures, and Approval Requirements for Using FDIC
Funds for These Activities, effective March 22, 2012. We reviewed the revised policy and
concluded that the policy adequately addressed each of the opportunities for improvement raised
in this report. The Deputy to the Chairman and CFO provided a written response to our draft
report, dated March 28, 2012. The response is presented in its entirety in Appendix II. The
written response indicated that in addition to addressing our opportunities for improvement, the
Corporation made other revisions to the conference policy based on the FDIC’s own evaluation
of other agencies’ best practices and benchmarks. The response also encouraged the OIG to
review compliance with the revised policy at an appropriate time in the future. As with the
revised policy, the Corporation’s written response adequately addressed the issues raised in our
report.




                                               12
                                                                                                      Appendix I

                           OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

The objective of our evaluation was to assess the FDIC’s policies and controls associated with
conference-related activities and expenses. We addressed this objective in two ways: we
assessed the FDIC’s compliance with its conference policies and procedures as they existed
during the period relevant to our review, and we separately considered other government
regulations and practices to identify, for management’s consideration, opportunities to strengthen
FDIC policies. We generally focused our assignment on conferences that were conducted from
October 1, 2010 through September 30, 2011.

We performed our evaluation from October through December 2011 in accordance with the
Council of Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.

Scope and Methodology

To accomplish our objective, we:

   Obtained cost and attendee information about FDIC conferences held from October 2010
    through September 2011.
   Reviewed FDIC conference planning policy and policy pertaining to meals and alcoholic
    beverages at corporate-sponsored events.
   Gained an understanding of the FDIC offices and officials involved in planning and
    approving conferences and the internal controls over the conference planning and approval
    process.
   Reviewed conference planning and expense documentation for conferences selected for
    detailed review.
   Interviewed corporate officials responsible for reviewing and approving conference requests
    and conference-related contracts and expenses.
   Interviewed conference planners associated with conferences that we selected for detailed
    review.
   Assessed compliance of conference expenses against policy requirements.
   Reviewed conference-related regulations applicable to other government agencies. Where
    possible, we obtained and reviewed conference policies from other agencies and interviewed
    representatives from other agencies to identify other agency practices that may be of interest
    and assistance to the FDIC as it seeks to enhance its current policy.

We reviewed a judgmental sample of eight conferences. These conferences represented
96 percent of FDIC conference expenses (based on information provided to us by the FDIC as
discussed earlier in the report) from October 1, 2010 through September 30, 2011.4


4
 Because this is a judgmental sample, the results of our testing cannot be projected to the universe of conferences
held at the FDIC.


                                                         13
                                                                                           Appendix II
                    CORPORATION COMMENTS
________________________________________________________________



 Federal Deposit Insurance Corporation
 550 17th Street NW, Washington, D.C. 20429-9990                                      Deputy to the Chairman and CFO

                                                                           March 28, 2012

 MEMORANDUM TO:                   Jon T. Rymer
                                  Inspector General

FROM:                             Steven O. App /Signed/
                                  Deputy to the Chairman
                                  and Chief Financial Officer

 SUBJECT:                         Management Response to the Draft Report Entitled,
                                  Evaluation of FDIC Conference-Related Activities
                                  and Expenses (Assignment No 2011-099)

         This memorandum is in response to the subject draft evaluation report dated February 2,
 2012. We appreciate this comprehensive and timely report addressing the Acting Chairman’s
 request that the Office of Inspector General (OIG) review the Federal Deposit Insurance
 Corporation’s (FDIC’s) policies and controls associated with conference-related activities and
 expenses. While the FDIC as an independent agency is not required to follow the recent,
 referenced OMB and Executive Order guidance on conferences; the information contained in the
 draft evaluation report will facilitate the FDIC’s ongoing cost reduction efforts in compliance
 with the spirit of these instructions.

        We acknowledge the positive, overall evaluation results; namely, that the FDIC generally
 complied with its operating policies for over 99 percent of the total $3.9 million in conference
 expenditures over the evaluation period. Nevertheless, we are concerned over the two noted
 compliance exceptions related to meal expenses and entertainment, which occurred in
 conjunction with the Chicago Regional Training Conference. Improved control procedures have
 been implemented to effectively eliminate such departures from FDIC policies going forward.

          With most conference expenses being in compliance with existing policies, the FDIC’s
 focus has been primarily prospective in nature. To this end, as noted in the OIG draft evaluation
 report, the FDIC began the process of reassessing its conference policy in the Fall of 2011,
 established interim measures to ensure all future conferences are more economical, and issued
 the revised conference policy in March 2012.

         The OIG offered seven opportunities to further strengthen existing controls and reduce
 conference expenses. The FDIC agrees with all of these items and incorporated the suggested
 actions into its revised Conference Operating Circular (1010.2). In addition to addressing the
 Inspector General’s suggestions, we made other revisions to the conference policy based on our
 own evaluation of other agencies best practices and benchmarks. Overall, the collective
 adoption of these actions positions the FDIC to both strengthen its internal approval processes to
 avoid policy compliance exceptions going forward and, significantly, continue to lower its
 overall conference expenses.




                                                         14
                       Appendix II

CORPORATION COMMENTS




         15
                       Appendix II

CORPORATION COMMENTS




         16
